No. 20-896
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
Teresa M. Graham,
Petitioner,
CERTIFICATE OF SERVICE

v.
Sergeant Shannon L. Barnette, et al.,
Respondent.

The undersigned hereby certifies that he is counsel for the
Petitioner in the above-captioned matter, and that on May 26,
2021, he served copies of the following attached documents on
opposing counsel via email as per agreement of opposing counsel:
Reply in Support of Petition for Writ of Certiorari
Said documents were transmitted by email to the following:
Brian Carter, Assistant Minneapolis City Attorney Brian.Carter@minneapolismn.gov

Dated: May 26, 2021

s/Jordan S. Kushner
JORDAN S. KUSHNER

